No. 18A1109
__________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________
B&B HARDWARE, INC.,
Applicant,
v.
HARGIS INDUSTRIES, INC.,
__________________________

Respondent.

APPLICATION FOR A FURTHER EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
__________________________

RULE 29.6 STATEMENT
Applicant has no parent company, and no publicly traded company owns 10% or
more of its stock.

To the Honorable Neil M. Gorsuch, Circuit Justice for the Eighth Circuit:
In accordance with Rule 13.5 of the Rules of this Court, B&B Hardware, Inc.
respectfully requests that the time within which to file a petition for a writ of
certiorari to review the judgment of the United States Court of Appeals for the Eighth
Circuit be further extended by 27 days, to and including July 3, 2019.
The Eighth Circuit issued its opinion on December 21, 2018 (Appendix 1). The
Eighth Circuit denied rehearing on February 6, 2019 (Appendix 2). On April 26, 2019,
the Circuit Justice extended the time to file a petition for a writ of certiorari through
June 6, 2017. The Court’s jurisdiction would be invoked under 28 U.S.C. § 1254(1).
1.

This action for trademark infringement was previously before this Court

on the merits.

This Court set aside the Eighth Circuit’s refusal to apply issue

preclusion to a decision of the Trademark Trial and Appeal Board (TTAB). B&B
Hardware, Inc. v. Hargis Industries, Inc., 135 S. Ct. 1293 (2015). In accordance with
this Court’s opinion, the Eighth Circuit remanded for a new trial on trademark
infringement. B&B Hardware, Inc. v. Hargis Industries, Inc., 800 F.3d 427 (2015).
The appeal under review arises from the judgment entered after that remand.
As this Court observed, “the twists and turns in [this] controversy are
labyrinthine,” and “[t]he full story could fill a long, unhappy book.” 135 S. Ct. at 1301.
At this point, the pertinent facts are as follows: A jury found that Hargis’s use of the
mark SEALTITE infringed B&B’s mark SEALTIGHT, but the decision whether to
award B&B disgorgement of Hargis’s profits was up to the district court. Op. 5. The
district court awarded no relief, invoking collateral estoppel based on a 2000 jury
verdict against B&B. Ibid. The Eighth Circuit had previously explained that the

2000 verdict did not have preclusive effect on B&B’s ability to enforce its trademark
once the mark became incontestable in 2006. See 15 U.S.C. § 1065; B&B Hardware,
Inc. v. Hargis Industries, Inc., 569 F.3d 383, 389-90 (8th Cir. 2009). The district court
concluded (relying on a special interrogatory submitted to the jury) that B&B had
obtained incontestable status for its trademark fraudulently, because it did not
disclose the adverse jury verdict from 2000 to the U.S. Patent and Trademark Office.
Op. 5. The court therefore applied preclusion notwithstanding the Eighth Circuit’s
prior ruling. B&B filed a Rule 59 motion asking the district court to order a new trial
or to alter or amend the judgment, which the district court denied.
2.

The Eighth Circuit affirmed. The court first concluded that its review

was limited to “plain error” because B&B had not filed a Rule 50(b) motion for
judgment as a matter of law on Hargis’s defense of fraud; it did not mention the Rule
59 motion. Op. 6. It then held that the jury was entitled to rule against B&B on that
defense, notwithstanding the lack of any affirmative evidence by Hargis to support
its fraud claim, and B&B’s evidence that it had relied on the advice of counsel and
lacked any fraudulent intent, Op. 7-8, because “the jury was entitled to disbelieve
[that testimony] if it chose.” Op. 8. Finally, the court held that the finding of fraud
justified disregarding the incontestability of B&B’s trademark and applying
preclusion as if the mark had never become incontestable. Op. 9-12. The court did
not reach any of B&B’s other challenges to the district court’s decision because of its
preclusion ruling.

2

3.

B&B intends to file a petition for certiorari.

The court of appeals’

decision appears to conflict with the precedents of this Court and other courts. First,
a Rule 59 motion is a proper vehicle to ask the trial court to decide whether a jury’s
verdict is against the weight of the evidence. See, e.g., Weisgram v. Marley Co., 528
U.S. 440, 453 n.9 (2000) (citing Montgomery Ward & Co. v. Duncan, 311 U.S. 243, 251
(1940)). And this Court has held that Rule 50(b) imposes no bar to asking for newtrial relief on appeal “when [the appellant] has complied with the Rule’s filing
requirements by requesting that particular relief below.” Unitherm Food Sys., Inc. v.
Swift-Eckrich, Inc., 546 U.S. 394, 402 (2006); see also id. at 403-404 (explaining this
Court’s cases in which parties “secured a new trial” on appeal “because in each of
those cases the appellants moved for a new trial post-verdict in the District Court”).
That rule is readily applied in other circuits. See, e.g., CFE Racing Prods., Inc. v.
BMF Wheels, Inc., 793 F.3d 571, 582-84 (6th Cir. 2015). Yet the Eighth Circuit
nonetheless applied only plain-error review.
Second, while reversing the Eighth Circuit’s application of the plain-error
standard of review would be enough to require that court to reconsider, the Eighth
Circuit’s underlying review of the fraud question appears to present a conflict as well.
B&B’s witness testified that his submission to the PTO was based on the advice of
counsel, and that the PTO was aware of the jury verdict in any event. The court’s
only rationale for why the jury could find fraud by clear and convincing evidence was
the speculative possibility that the jury disbelieved B&B’s witness. Op. 8. That
appears to conflict with precedent of the Federal Circuit—the court with nationwide,

3

though not exclusive, jurisdiction to review decisions of the TTAB, 15 U.S.C.
§ 1071(a), including on questions of fraud on the agency. That court has emphasized
that intent to deceive is an indispensable element of fraud in the trademark context;
that “[t]here is no fraud if a false misrepresentation is occasioned by an honest
misunderstanding or inadvertence without a willful intent to deceive”; and that
unless the proponent of a fraud argument “can point to evidence to support an
inference of deceptive intent, it has failed to satisfy the clear and convincing evidence
standard required to establish a fraud claim.” In re Bose Corp., 580 F.3d 1240, 1246
(Fed. Cir. 2009).
4.

Although B&B previously obtained one 30-day extension, a further

extension is necessary in light of subsequent developments. B&B is a small company
with limited resources and, despite diligent efforts over many weeks, was not able to
raise funds to hire specialized Supreme Court counsel. These efforts consumed much
of the period for seeking certiorari and a portion of the extension granted by the
Circuit Justice. On May 14, 2019, B&B retained the undersigned counsel to file a
petition for certiorari. While familiar with the case (having served as counsel below),
the undersigned counsel has a significant professional conflict—preparing for and
conducting an 8-day trial in the Eastern District of Arkansas that is scheduled to
begin June 10, 2019 (with pretrial conference May 29, 2019).

In addition, the

undersigned counsel has limited experience in this Court and requires the additional
time to research, prepare, and print a compliant petition.
For the foregoing reasons, this Court should extend the time for the filing of a

4

petition for a writ of certiorari by 27 days, to and including July 3, 2019.

Respectfully submitted.

Tim Cullen
Counsel of Record
Cullen & Co., PLLC
P.O. Box 3255
Little Rock, AR 72203
tim@cullenandcompany.com
501-370-4800
May 21, 2019

Counsel for Applicant

5

